<html>
<title> - A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE DEPARTMENT OF LABOR'S VETERAN EMPLOYMENT AND TRAINING SERVICE (VETS)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
  A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE
  DEPARTMENT OF LABOR'S VETERAN EMPLOYMENT AND TRAINING SERVICE (VETS)

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, FEBRUARY 12, 2015

                               __________

                            Serial No. 114-8

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                                      _________ 
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE
  98-571 PDF                      WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001        
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  AMATA COLEMAN RADEWAGEN, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                                  (II)






                            C O N T E N T S

                              ----------                              

                      Thursday, February 12, 2015

                                                                   Page

A Review of the President's Fiscal Year 2016 Budget Request for 
  the Department of Labor's Veteran Employment and Training 
  Service (VETS).................................................     1

                           OPENING STATEMENTS

Brad Wenstrup, Chairman..........................................     1
    Prepared Statement of Chairman Brad Wenstrup.................    29
Mark Takano, Ranking Member......................................     3

                               WITNESSES

Ms. Teresa W. Gerton, Deputy Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......     4
    Prepared Statement...........................................    31

Mr. Davy G. Leghorn, Assistant Director, The Veteran Education 
  and Employment Commission, The American Legion.................    13
    Prepared Statement...........................................    47

Mr. Rick Weidman, Executive Director, Government Affairs, VVA....    15
    Prepared Statement...........................................    51

Mr. Paul R. Varela, Assistant National Legislative Director, DAV.    17
    Prepared Statement...........................................    61

                             FOR THE RECORD

Question and Responses, From: Paul Varela, DAV...................    67


  A REVIEW OF THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR THE 
  DEPARTMENT OF LABOR'S VETERAN EMPLOYMENT AND TRAINING SERVICE (VETS)

                              ----------                              


                      Thursday, February 12, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 1:59 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup, 
[chairman of the subcommittee] presiding.
    Present:  Representatives Wenstrup, Zeldin, Costello, 
Radewagen, Bost, Takano, Titus, Rice, McNerney.

          OPENING STATEMENT OF CHAIRMAN BRAD WENSTRUP

    Dr. Wenstrup. I want to welcome you all to the Subcommittee 
on Economic Opportunity's hearing today entitled A Review of 
the President's Fiscal Year 2016 Budget Request for the 
Department of Labor's Veteran Employment and Training Services, 
otherwise known as VETS.
    Just to say up front, I apologize if we may have to break 
to go to votes, but I thought we would get underway.
    DoL's VETS or Veteran Employment and Training Services 
manages several programs for servicemembers and veterans alike. 
Within VETS is the Jobs for Veterans State Grant Program which 
funds Disabled Veterans' Outreach Program specialists, DVOPs, 
and local veterans' employment representatives, LVERs.
    There is also the Homeless Veteran Retraining Program which 
provides grants to providers for job training services and 
stand-downs for homeless veterans, the employment workshop 
portion of the Transition Assistance Program, TAP, enforcement 
of the Uniformed Services Employment and Reemployment Rights 
Act, USERRA, and the promotion and outreach for veterans' 
hiring throughout the country and Federal Government, these are 
all very critical services and they are all vital to our 
servicemembers' and veterans' well-being after they leave 
active duty.
    As more and more men and women are returning from 
deployments or separating from the military, it is imperative 
that we place a focus on these individuals and the services 
that we provide to them through VETS programs while also 
helping veterans of past conflicts who face underemployment and 
unemployment issues.
    Unfortunately for years, it has been clear that senior 
leaders at the Department of Labor do not put the focus that is 
needed on the Veterans' Employment and Training Service. And to 
be quite frank, many in the veterans' community, and we will 
hear from them next, have said over and over again that more 
often than not, DoL has ignored the agency altogether.
    Now, this is not just a current issue and it is not a 
political one. This seems to have been a trend throughout many 
administrations regardless of party. I know we can all agree 
that the country's veterans deserve to be the top priority, yet 
I worry that DoL does not always prioritize and coordinate 
their services for veterans as well as they could and should.
    The President's fiscal year 2016 budget for the VETS 
Program is once again basically flatlined while the rest of the 
department is not. The budget as a tool is the ultimate list of 
an administration's priorities and it is clear where DoL's true 
priorities lie.
    In addition to reviewing the President's proposed budget 
for VETS, I also believe today's hearing is an important 
opportunity to examine the Department of Labor's ability to 
measure long-term outcomes and the department's efforts to 
coordinate with the Department of Veterans Affairs and the 
efficiency of the Jobs for Veterans State Grant and VETS State 
Program.
    JVSG which funds DVOPs and LVERs has been a constant 
concern of the subcommittee over the years and time and time 
again, we have heard concerns from the VSO community on the 
outreach or lack thereof that these DVOPs and LVERs are doing 
to help veterans find jobs.
    What is truly upsetting is that despite spending millions 
and millions of dollars on this program over the years, VETS is 
still unable to accurately track if the services provided by 
DVOPs and LVERs led to a veteran finding meaningful employment. 
Results matter.
    Reading through testimony for today's hearings and previous 
hearings held by this subcommittee, it is clear that VSOs and 
other stakeholders are ready for a change, a concrete change to 
bring better coordination between DoL and VA, better 
accountability and efficiency within VETS programs, and better 
data to show what VETS is doing to provide positive long-term 
outcomes for our Nation's veterans.
    We have been told by VETS time and time again that this 
time it will be different and this time they have a seat at the 
table at the Department of Labor, but it doesn't seem that 
anything is ever different. As the old saying goes, the 
definition of insanity is doing the same thing over and over 
again and expecting a different result.
    So in this vein, it appears that many are pushing to create 
a fourth administration at VA and move VETS out of DoL to VA, a 
concept that has been discussed and included in legislation in 
previous Congresses.
    I look forward to hearing more about this proposal and 
discussion by the VSOs as well as other avenues we can explore 
to improve employment opportunities and consistency of services 
provided by DoL and the State Grant Program across the country.
    Before I turn it over to the ranking member, Mr. Takano, I 
just want to reiterate that I believe that the new senior 
leadership team at VETS is trying to turn the ship around and 
by and large, the employees of VETS do good work. But they are 
only a small piece of the puzzle at an agency as large as DoL.
    The problem is that no matter how small of a player VETS is 
within the larger mission of the department, the services they 
provide to our Nation's veterans are too important to be 
overlooked. And that is our challenge here today and I look 
forward to hearing from everyone about how we can improve the 
performance and focus of the program.

    [The prepared statement of Chairman Brad Wenstrup appears 
in the Appendix]

    I now recognize Ranking Member Takano for his opening 
comments.

        OPENING STATEMENT OF RANKING MEMBER MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman.
    Thank you. Thank you to our witnesses and welcome to them 
all.
    I am happy to say that the job market for veterans and 
other Americans is continuously improving. We are now in our 
59th consecutive month of private sector job growth. Eleven 
point eight million jobs have been added to our economy in the 
longest uninterrupted period of private sector job creation in 
our history.
    However, we must not confuse positive employment numbers 
with the need to provide our servicemembers with a successful 
transition from the military. We must remain vigilant in 
ensuring that we are providing our servicemembers with the 
tools and training that they need to successfully navigate this 
transition.
    Let me be clear. A servicemember's transition is incredibly 
challenging. I would ask you to consider a servicemember that 
joins the military at 18 years of age, deploys to a war zone on 
numerous occasions, and four years later at the age of 22 is 
leaving the service.
    She has received a great deal of training, had significant 
life experiences, some good, some bad. She may or may not have 
physical disabilities. She probably has never written a resume. 
Short of a job in high school, she has never had an interview.
    She has financial needs. She likely has a car, cell phone, 
maybe a mortgage, maybe a child. She will most likely go home 
or stay at the location of her last duty station. More likely 
than not, she will become unemployed.
    So while our country's economic situation is arguably 
better than it has ever been, if transitioning servicemembers 
are having trouble finding jobs, there is a problem.
    Veterans spend three days in employment workshops designed 
by the Department of Labor prior to exiting the military, but 
their effectiveness is unclear.
    I am pleased to hear that the Administration has created 
the military life cycle to provide continuous touch points in a 
servicemember's career to prepare them for this transition. How 
it is integrated with the Veterans Administration for a 
seamless transition is also unclear.
    The bottom line remains more needs to be done. With regards 
to the bottom line, DoL-VETS budgets largely reflect the 
continued request to fund states to hire employees that focus 
on assisting veterans with employment.
    While laudable in theory, I remain concerned that the 
impact this resource provides is unclear. I encourage DoL VETS 
to strongly consider what its intended outcomes are and then 
determine how you can measure those outcomes to drive those 
results.
    I look forward to working with DoL VETS in moving forward. 
You have a substantial budget to help veterans transition and 
find employment. I look forward to hearing on how you plan to 
make great things happen for veterans with this substantial 
budget.
    Thank you, Mr. Chairman, and I yield back.
    Dr. Wenstrup. I thank the ranking member.
    And I now welcome our only witness on the first panel to 
the witness table. We do welcome Ms. Teresa Gerton, the Deputy 
Assistant Secretary for Policy, Veterans' Employment and 
Training Services, U.S. Department of Labor.
    Unfortunately, they have called votes and there is about 
seven minutes left on the vote. So at this time, we will break 
and come back. And I apologize for the inconvenience to 
everyone. And we will see you back after votes.
    [Recess.]
    Dr. Wenstrup. Well, again, we welcome Ms. Teresa Gerton, 
Deputy Assistant Secretary for Policy, Veterans' Employment and 
Training Services, U.S. Department of Labor.
    Thank you for being here with us today, Ms. Gerton. Thank 
you for your service to veterans and for your service to our 
country and uniform as well. It is appreciated.
    You are now recognized for five minutes for your opening 
statement.

                 STATEMENT OF TERESA W. GERTON

    Ms. Gerton. well, Good afternoon, Chairman Wenstrup, 
Ranking Member Takano, and distinguished Members of the 
subcommittee.
    Thank you for the opportunity to participate in today's 
hearing. I appreciate the invitation to discuss the 
Department's fiscal year 2016 budget submission supporting our 
programs and initiatives pertaining to veterans' employment.
    VETS is the Federal Government's leader on veteran 
employment. The coordinated actions and collaborative 
relationships between VETS and the 12 other departments in DoL 
create synergy through the integration of all departmental 
resources and expertise on veterans' employment, bringing all 
of DoL's resources to bear for America's veterans and 
servicemembers.
    VETS mission is focused on four key areas, preparing 
veterans for meaningful careers; providing them with employment 
resources and expertise; protecting their employment rights; 
and promoting the employment of veterans and related training 
opportunities to employers across the country.
    VETS prepares veterans for meaningful careers through the 
Transition Assistance Program where DoL teaches a mandatory and 
comprehensive three-day employment workshop at U.S. military 
installations around the world. We provide a vast array of 
services to transitioning servicemembers, veterans, and their 
spouses to help them with job searching, accessing training 
programs to bridge skill gaps, and identifying employment 
opportunities.
    At the center of the department's efforts are two VETS 
administered grant programs: the Jobs for Veterans State Grants 
or JVSG and the Homeless Veterans' Reintegration Program, or 
HVRP.
    HVRP offers competitive grants to nonprofit organizations 
to provide employment and training services to homeless 
veterans so that they can be reintegrated into the labor force. 
There are currently 154 of these grantees across the Nation.
    JVSG funds are provided to fund two staff positions: 
Disabled Veterans' Outreach Program specialists, known as 
DVOPs, and the Local Veterans' Employment Representatives, or 
LVERs. These staff work for state governments at the Nation's 
nearly 2,500 American Job Centers.
    DVOP specialists provide intensive services to eligible 
veterans and spouses to meet their employment needs, 
prioritizing service to special disabled or other disabled 
veterans, and to other eligible veterans in accordance with 
priorities determined by the Secretary. DVOPs must place 
maximum emphasis on assisting veterans who are economically or 
educationally disadvantaged.
    In response to concerns expressed by the Veteran Service 
Organizations regarding constraints in meeting the number of 
veterans eligible for DVOP services, VETS recently modified 
definitions for the duration of unemployment and ex-offenders 
to expand the population eligible for those services.
    LVERs perform a wide variety of duties specifically related 
to outreach to the employer community. They advocate for all 
veterans served by the AJC with local businesses and other 
community-based organizations. We recently released clarifying 
guidance about the role of the LVER in order to address 
concerns raised by our VSO partners.
    VETS protects veterans' employment rights by receiving, 
investigating, and resolving claims arising under the Uniformed 
Services Employment and Reemployment Rights Act. We also 
investigate claims of violations of veterans' preference in 
federal hiring.
    In a related effort, VETS collects annual reports on 
veteran employment from federal contractors and partners 
closely with the Office of Federal Contract Compliance Programs 
to ensure that federal contractors understand their obligations 
regarding veteran hiring. We then connect these employers with 
employment ready veterans to help them meet their hiring goals.
    VETS Office of Strategic Outreach promotes engagements with 
federal, state, and local governments; private sector employers 
and trade associations; institutes of higher learning, 
nonprofit organizations; and Veteran Service Organizations to 
establish and develop a network that enables service members, 
veterans, and families to successfully integrate into their 
communities.
    VETS continues to work closely with our partners across the 
government to support veteran employment initiatives. We also 
work with industry-wide veteran hiring efforts and have 
participated in numerous job summits in military installations 
around the country.
    Additionally, we have partnered with over 50 major 
companies to help institutionalize their veteran hiring by 
connecting them with local AJCs to bring in job ready veteran 
talent.
    VETS is making a difference. Our veterans are obtaining 
meaningful employment. With the veteran unemployment rate 
continuing to trend lower than the national average and 
significant improvement amongst our youngest veterans, we would 
have strong concerns with any legislation that would interrupt 
our progress or constrain our ability to help veterans, 
transitioning service members, and their families continue to 
achieve positive employment outcomes.
    We look forward to working with the Subcommittee to ensure 
that our transitioning service members, veterans, and families 
have the resources and training they need to successfully 
transition to the civilian workforce.
    Thank you for the opportunity to be part of this hearing. I 
welcome any questions you may have.

    [The prepared statement of Teresa W. Gerton appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Ms. Gerton.
    I am now going to yield myself five minutes for questions.
    And the first concern I have or one of the most common 
concerns that we have heard from VSOs and from Members alike is 
the lack of real solid performance data for DVOPs and LVERs 
that truly show if the services they provide actually lead to a 
veteran receiving a meaningful job.
    And that really is the bottom line of where we want to be, 
and I know you understand that. And I understand that one of 
the issues that prevents DoL from having this data is the 
myriad of state IT and data systems that DoL relies on for that 
information which I understand to be very complicated.
    But can you describe to us some of the challenges you have 
with tracking these types of performances and then, if you 
would, how will or will not the department's fiscal year 2016 
budget request, address these challenges that you face?
    Ms. Gerton. Thank you, Mr. Chairman.
    Data is a very important piece of our agenda. And, of 
course, as we all want to be able to track outcome-related 
metrics for the performance of DVOPs and LVERs, I think we are 
making some progress and especially under the Workforce 
Innovation and Opportunity Act that will drive changes in those 
reporting systems.
    We expect to continue to see improvement, but right now we 
do track three department-wide common measures for outcome. We 
track the entered employment rate, that is do veterans or 
Americans who receive services through the job center secure 
employment within 90 days after their last service in the job 
center. We track the retained employment rate which is do they 
retain employment for the following two quarters after they 
have obtained employment. And then we also track their six-
month earnings.
    Within those, those are common measures tracked across the 
entire workforce system, we are able to segregate out the 
population of veterans who have received services at an 
American Job Center and further below that the population that 
has received services from a DVOP so that we can differentiate 
between the levels of service.
    We have great performance measures right now. We are 
continuing to see an upward trend in the entered employment 
rate for veterans, for all veterans who are served at the job 
center and then within that, the JVSG rates are even higher. 
For fiscal year 2014, the entered employment rate for veterans 
who received services through the JVSG Program was at 55 
percent and the retained employment rate was at 80 percent. And 
those numbers have continued to trend upward.
    We also just this week released a study commissioned by our 
chief evaluator's office that laid out more specifics in 
detail. They took the first look at the new reporting structure 
and they looked at over 20 million employment records. Two 
million of those were veterans. So we have a very large 
statistical sample.
    Dr. Wenstrup. Let me ask a question. I mean, those are good 
statistics, obviously helpful to follow, and DoL tracks those 
types of statistics.
    But I am not certain that I am hearing that these 
employment numbers are a result of those programs. Like you may 
have said they took part in the program, but did the employment 
that they end up with, is that a result of being in those 
programs?
    Ms. Gerton. I think you are correct in saying that they are 
correlated and it is difficult to track causality, but the 
correlation is very close and very tight. And that is 
especially prominent in the Summit Report which, again, we just 
released. It has over two million veteran records in it, so we 
have a very statistically sound sample there.
    Dr. Wenstrup. From our standpoint here, we want to know if 
the program that we are endorsing is actually having the result 
or is the result coming from somewhere else?
    And so with the budget constraints and no uptick in this 
budget proposal, are we really going to be able to track that? 
Are there any changes that let us know if these programs are 
working? It is nice to see the numbers go up. I agree with you 
there. But what is the cause? And you addressed that to some 
degree. So how can we get that information?
    Ms. Gerton. I think there is another indicator of the level 
of service and the involvement of the DVOPs, particularly in 
supporting veterans as they are getting job ready, and that is 
the level of intensive services. So that measures how much time 
DVOPs are spending with their clients in the JVSG Program.
    A few years ago, that number was down around 20 percent. 
When we implemented the JVSG refocusing effort, we set some 
pretty ambitious goals. By the end of fiscal year 2015, we 
expect to be at 75 percent. We are at 55 percent right now 
across the program.
    We know that as a result of the refocusing, the DVOPs are 
able to spend more time with their clients. They are spending 
more time with their clients. And as that happens and the 
numbers are trending upward, we believe that there is a really 
strong correlation between those two factors.
    Dr. Wenstrup. Thank you.
    I now recognize the ranking member, Mr. Takano, for 
questions he may have.
    Mr. Takano. Great. I have a number of 53 percent of 
veterans who are experiencing a period of unemployment are 
adequately being trained during the DoL workshop, employment 
workshop.
    Ms. Gerton. I am sorry, sir. Is your question whether or 
not the training is adequate to prevent unemployment?
    Mr. Takano. No. The 53 percent of veterans that we know are 
experiencing--that is the number of I have--who are 
experiencing a period of unemployment are adequately being 
trained during the Department of Labor employment workshop.
    Ms. Gerton. I do believe that the training that is within 
the Employment Workshop does address the skills that those 
transitioning servicemembers need to begin to be introduced to 
the job search program.
    I think there is an important part in that the way we track 
those is not only do we teach that in the Employment Workshop, 
but now as a result of the military life cycle, we touch those 
servicemembers again at their capstone counseling just before 
they are transitioning. So we now have another point at which 
we can enforce the preparation and make sure that they are 
adequately prepared.
    And in partnership with DoD, we have a memorandum of 
understanding that allows us to execute what we call a warm 
handover so that if individuals at that point are determined 
not to be career ready by their chain of command, they are 
handed directly over to an American Job Center for additional 
support prior to that transition.
    We have also taken aggressive action over the last year to 
help servicemembers understand their eligibility under the 
dislocated worker provisions. And Congress has helped us by 
allowing us to provide DVOP services to transitioning 
servicemembers who may be determined to be at risk of securing 
civilian service.
    So that 53 percent number which was recently in the VA's 
economic opportunity report is true. But since those samples 
were taken, we have implemented a number of programs to help 
remediate those. We look forward to seeing the numbers in the 
next go round.
    Mr. Takano. Well, are there redundancies between the work 
done at DoL, DoL VETS and the VA Office of Economic 
Opportunity?
    Ms. Gerton. So we partner very closely with the Office of 
Economic Opportunity. They administer two very important 
benefits that help veterans and servicemembers in that 
transition, the GI Bill and the Vocational Rehabilitation and 
Employment Program.
    We partner with them to make sure that transitioning 
servicemembers and veterans are adequately apprised of those 
and know how to leverage those benefits.
    In the Vocational Rehabilitation Program, in fact, we are 
just at the point of signing an updated memorandum between the 
two organizations that addresses data sharing that clarifies 
responsibilities so that the Department of Labor has the 
employment responsibility piece and provides labor market 
information to the VA so that they can provide clear guidance 
to their clients about what job opportunities might be 
appropriate for them in job growth areas or local labor market 
information.
    So that partnership is very tight. It is tight on the pre-
transition side. It is tight on the post-transition side and 
along the way for veterans. And it is absolutely critical to 
delivering the best possible support that we can for veterans.
    Mr. Takano. But I know that you have a tight relationship, 
but are there redundancies?
    Ms. Gerton. We are working hard to make sure that there 
aren't. I think it is important to differentiate the counseling 
responsibility and the administration of benefits of the VA 
side from the actual job training and employment services 
provided on the Department of Labor side.
    Mr. Takano. Okay. So there are redundancies from what I am 
hearing?
    Ms. Gerton. There could be if we are not careful, but we 
try to be again very clear and transparent in those 
relationships.
    Mr. Takano. Well, let's go back to TAPs since we have some 
experience with it. If we were to start all over and build a 
new transition and veteran employment program, transition and 
veteran program which goes beyond TAPs that would be funded at 
the current $233 million, how would it differ from the program 
we have today if you were to try and rebuild it?
    Ms. Gerton. There is a challenge with the TAP Program in 
all of the things we would like to be able to teach 
servicemembers while they are going through that and the amount 
of time that they can spend away from their unit to 
participate. The balance of that right now sits at a five-day, 
eight-hour-a-day class. Within that, you are constrained in 
terms of the amount of material that you can provide.
    I think we are in partnership with DoD and VA trying to 
maximize not only what we teach in that class, but then to 
offer alternative classes, additional modules. For example, the 
career and technical training track or the entrepreneurial 
track that servicemembers may take in addition to the core 
curriculum.
    And the other piece of that is we do an annual curriculum 
review to make sure that what we are teaching reflects current 
state of the art, that we are capturing as many of the 
resources as possible, and that we can make the resources 
available for review as servicemembers proceed through and into 
their veteran status. They may need to go back and reference 
that material, so it is important to make sure that it is 
always online as well.
    Mr. Takano. Well, thank you.
    My time is up, Mr. Chairman.
    Dr. Wenstrup. Mr. Costello, you are recognized for five 
minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Ms. Gerton, thank you for your testimony.
    I want to focus on the Transition Assistance Program. Two-
part question or two elements of that program that I would ask 
that you share some of your observations on.
    First, the $100,000 in the budget that is intended to 
develop a mobile application, is that intended to supplant the 
classroom or is that intended to be a supplement to the 
classroom?
    And I ask that question because one of the issues raised 
about TAP is that at the end of the program, there is 
oftentimes, at least the thought that the returning 
servicemember might actually want to refer back. And so it is 
oriented around whether that mobile app may actually be the 
conduit through which TAP can live on after the classroom.
    So if you would offer even beyond that any content that you 
might be thinking of putting in that mobile app in order to 
accomplish that objective.
    The second part of the question or the second question is 
Military Compensation and Retirement Modernization Commission, 
that is a mouthful, specifically recommended having DVOPs and 
LVERs more involved with TAP. What are your views on those 
recommendations?
    Ms. Gerton. Thank you, sir.
    Let me take the first one, the $100,000 for the mobile TAP 
app. Our vision for that is that it would be in addition to the 
classroom curriculum, that it would be a way for servicemembers 
to continue to refer to it either while they are in class or 
after.
    One of the opportunities that we are hoping to take 
advantage of is making it modular so that each part of the 
curriculum is accessible on its own so that individuals who 
come back later and maybe just want to review the resume 
writing piece, for example, can just look at the resume writing 
piece without having to scroll through the entire curriculum 
deck that is currently available online.
    We hope to make it much more accessible not only to 
transitioning servicemembers while they are going through the 
class but to veterans at any point after their separation. And 
as we do right now with the online curriculum, we make it 
available to anyone, not just servicemembers and veterans and 
families, but anyone who can access the material online.
    We would envision this being a global application. The 
content would be whatever is in the curriculum at the time we 
develop it and then we would continue to modernize it as we 
change curriculum. Does that answer your question, sir?
    Mr. Costello. Yes.
    Ms. Gerton. All right. So let me take the second question, 
the proposal about allowing DVOPs and LVERs to work more 
closely with the on-base Transition Assistance Programs.
    In September of last year, in fact, DoL VETS published a 
veterans' program letter out to our workforce and to the 
employment and training workforce actually encouraging that 
engagement. There is a limit to what we can direct those state 
employees to do.
    But we did especially encourage them to be responsive to 
the on-base TAP administrator so that when there were capstone 
programs, for example, that they could be invited to too 
attend, if at all possible, to be active with the transition 
assistance centers there on the base and to build that working 
relationship. So we have already published that guidance and 
that was after our initial interviews with the folks on the 
commission.
    Mr. Costello. So just to clarify your second answer, you've 
made that recommendation; however, there's nothing that you can 
do to compel, for lack of a better term, the DVOPs or LVERs 
becoming more involved. It's on a state by state basis; is that 
what you are saying?
    Ms. Gerton. It is dependent upon the work loads and the 
work forces at the individual centers. But in most cases those 
folks who are in American Job Centers who are proximate to 
military installations already have a great relationship and 
there's certainly nothing that prohibits them from being more 
involved. We published that guidance specifically to encourage 
them to be more involved in the Capstone opportunities.
    Mr. Costello. Thank you.
    Dr. Wenstrup. Mr. McNerney, you are recognized for five 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman. And I'm thrilled to 
be back on the veterans committee and your sub-committee.
    Dr. Wenstrup. Welcome back.
    Mr. McNerney. Ms. Gerton, thank you for your work and I 
want to compliment you on your presentation a few minutes ago. 
My first question has to do with federal contractors, they are 
required to make reports on their hiring practices on 
compliance. What's the enforcement mechanism and how do they 
cooperate? Is the information you get from them accurate?
    Ms. Gerton. Sir, we partner very closely with the Office of 
Federal Contractor Compliance programs, that executes the 
reporting mechanism, and then the Office of Federal Contractor 
Compliance monitors compliance with that. If you will give me a 
moment, I think I have statistics on that. But it's through the 
VETS 100 report which we are modifying in fiscal year 2015 to 
be the VETS 4212, and we are clarifying a lot of the reporting.
    In the old version the characteristics of covered veterans 
were overlapping, so it's very difficult to tell exactly how 
many veterans had been hired. The new version that goes into 
effect this year will be much clearer and will allow for much 
greater and more accurate compliance on the part of OFCCP.
    So those numbers were 14,000 federal contractors submitted 
veteran hiring filings in fiscal year 2014 and they 
demonstrated over half a million veterans employed by those 
federal contractors, including over a hundred thousand disabled 
veterans.
    Mr. McNerney. So you feel that that is an effective 
program?
    Ms. Gerton. We do. And one of the things that we have 
expanded on with the Office of Federal Contractor Compliance is 
outreach to those federal contractors so that when they are 
having difficulty meeting the floors that are now set in the 
new federal rules that we can help introduce them to the job 
center network so that they can help expand their affirmative 
action plans with regard to veteran hiring. And we think that's 
going to have a very positive effect.
    Mr. McNerney. And one of the things that kind of struck me 
about your presentation is it seemed to me you were saying that 
your programs are effective and you don't want legislation to 
be written that will mess those up. Did I hear that? Am I 
interpreting that correctly?
    Ms. Gerton. So we absolutely believe that VETS is an 
integral part of the Department of Labor. And that to 
understand the veteran programs, you have to take a whole of 
department approach to it and understand the relationship of 
the programs in the Employment and Training Agency, for 
example, Office of Federal Contract Compliance and others to 
get a whole grasp of all of the things that DoL is doing on 
behalf of veterans employment.
    Mr. McNerney. That sounded a little weird to me and I think 
the Secretary said something like that yesterday, well, he 
really didn't need our help, he will let us know when he did. 
And that kind of makes me nervous, so I would like you to keep 
that in mind.
    Ms. Gerton. Sure.
    Mr. Regner. Do you have statistics on veterans' job 
retention?
    Ms. Gerton. The most recent statistics for fiscal year 2014 
tell us that 80 percent of the veterans who received service 
through an American Job Center retained their employment for at 
least six months after gaining it. We do only have statistics 
on the veterans who receive services through the American Job 
Center network.
    Mr. McNerney. Well, do you have any quantitative 
information on what might be the biggest barriers that veterans 
that are seeking employment, what are their biggest barriers?
    Ms. Gerton. It is difficult to have quantitative 
information, but I can tell you based on the feedback that we 
have from the DVOPs and folks out in the field, there are 
really two areas where our transitioning service members are 
challenged, and perhaps also longer term separated veterans.
    The first is really an understanding of the civilian job 
search process. As the Chairman said in his opening statement, 
these are folks who have never really had that experience 
before, and so the transition process is especially important 
in preparing them to navigate that sort of uncertain world for 
them.
    And a recognition on their part that the job search process 
can take months, not just days or weeks. We think it is 
especially important in the transition process as DoD 
implements the military life cycle and that concept of 
transition becomes an ongoing one, to keep them engaged in 
that. But also then to help them post transition with one-on-
one assistance through the American Job Center. That can very 
much ease the transition process. But I think that's the first 
piece.
    The second piece is actually working with the veteran to 
help understand the technical skills gap that they may have 
coming out of the military, and looking to target specific 
training solutions, so that, especially in the short-run, we 
can find short-term training that magnifies and amplifies their 
military skills training and delivers to them the civilian 
credentials that businesses are looking for.
    Sometimes that is a full four-year degree and we certainly 
encourage the maximum opportunity for folks to take advantage 
of the G.I. Bill. But for many, that middle skills space may be 
the more important short-term solution. Learning how to 
leverage the entire workforce system to deliver the right 
training to the right person to get them the credentials that 
that employer is looking for is really a powerful tool. We are 
trying to maximize the department's investment in job-driven 
training to help support that objective.
    Mr. McNerney. Thank you, Mr. Chairman.
    Dr. Wenstrup. Ms. Radewagen, you are recognized for five 
minutes.
    Ms. Radewagen. Welcome back, Ms. Gerton.
    Ms. Gerton. Thank you.
    Ms. Radewagen. It's good to see you. I have a couple of 
questions for you. Do you have a VA rep from the Department of 
Labor in American Samoa working employment issues for our 
veterans?
    Ms. Gerton. Ma'am, we do not have a JVSG grant funded 
individual in American Samoa.
    Ms. Radewagen. Why not?
    Ms. Gerton. Well, in fact, we were just looking at that 
before we came over to the hearing. It is certainly something 
we would welcome the opportunity to discuss with your office.
    Ms. Radewagen. Thank you. Secondly, are American Samoan 
veterans eligible for re-employment rights under USERRA? Every 
state and territory except for American Samoa has an ESGR rep. 
Why doesn't American Samoa have one?
    Ms. Gerton. Ma'am, I don't know the answer to that question 
and I will have to take it for the record.
    Ms. Radewagen. Thank you. Thank you, Mr. Chairman.
    Dr. Wenstrup. Well, thank you. If there are no other 
questions, I want to thank you, Ms. Gerton. You are now 
excused, and I appreciate your being here today to answer our 
questions.
    Mr. Gerton. Thank you, sir, it has been my pleasure.
    Dr. Wenstrup. I now invite our second and final panel to 
the witness table. Joining us is Mr. Davy Leghorn, Assistant 
Director of the Veterans Employment and Education Division for 
the American Legion. Mr. Rick Weidman. 
    Dr. Wenstrup. Executive Director of Government Affairs for 
the Vietnam Veterans of America. And Mr. Paul Varela, Assistant 
Legislative Director for Disabled American Veterans. I thank 
you for being with us today, and for all of your service in 
uniform, and your continued service to our nation's veterans.
    Mr. Leghorn, let us begin with you. You are now recognized 
for five minutes.

                  STATEMENT OF DAVY G. LEGHORN

    Mr. Leghorn. Chairman Wenstrup, Ranking Member Takano, and 
distinguished members of the sub-committee, on behalf of our 
National Commander Michael Helm and the 2.4 million members of 
the American Legion, we thank you for this opportunity to 
testify on the President's budget request for DoL-VETS, and on 
the recommendations offered by the Military Compensation and 
Retirement Modernization Commission regarding DoL programs.
    Among the 15 recommendations offered in the Commission 
report was a recommendation to better prepare service members 
for transition to civilian life by expanding education and 
granting states more flexibility to administer the Jobs for 
Veterans State Grants program.
    The American Legion believes that these recommendations are 
common sense ideas that would ensure that service members are 
able to transition smoothly and successfully into civilian 
careers, and that veterans are adequately cared for should they 
require employment assistance.
    We would, however, recommend that Congress consider adding 
the Department of Education and the Small Business 
Administration to those who review the TAP curriculum, given 
that they contribute important content to the curriculum and 
they maintain expertise in those areas covered by that content.
    Furthermore, while the American Legion agrees with the 
recommendation that Congress amends relevant statutes to permit 
state Departments of Labor to work directly with state 
Veterans' Affairs, we would add that these departments should 
work together to ensure that operations of the one-stop centers 
exceed the federally mandated priority of service for eligible 
veterans.
    We find that the model employed by Texas, consolidating 
veterans' employment services within a state's veterans 
commission is effective in addressing the needs of veterans. 
Texas currently sees the lowest unemployment rate for veterans 
of any state in the Union, and as such we would encourage 
Congress to examine that model and to consider touting it as an 
example to other states that are looking to effectively serve 
their veterans population.
    Bluntly stated, we were disappointed when we examined the 
budget request offered by the Administration on behalf of DoL-
VETS. We were even more disappointed when we compared their 
requests with the requests on behalf of VA. The latter 
represented a nearly eight percent increase on a previous year, 
while the former represented a marginal increase over the 
previous years, with JVSG and the Homeless Veterans 
Reintegration Program receiving almost no increase in funding.
    Additionally, VA has stepped up their presence in the 
employment arena and invested in increasing the number of 
veterans employment specialists and creating the Veterans 
Employment Center, a single point of entry which offers online 
tools such as a skills translator, a resume builder, and a 
searchful veterans job bank.
    Looking at the Small Business Administration. Their office 
for veterans business development's budget has increased over 
400 percent and their entrepreneurial services to veterans have 
more than doubled since fiscal year 2013.
    At a time when seemingly every agency with veterans 
programs is increasing their capacity to provide services to 
more veterans and transitioning service members, VETS budgets 
requests have nearly flatlined even as other portions of 
Labor's budget requests have increased. This indicates to us 
that VETS is either unwilling or unable to fight to secure 
their requisite funding to meet the high volume of demand for 
Veterans Employment Services, or to meet the Administration's 
goal of effectively ending homelessness by the end of 2015.
    The American Legion has long supported DoL-VETS because we 
believe that when it comes to employment, no one has more 
expertise and experience. For our efforts, we have been 
rewarded with ongoing program management problems, a lack of 
accountability in oversight, an agency too truculent to make 
sensible policy changes, and a veterans office within the 
agency that fails to view veteran service organizations as 
partners for all working in tandem toward similar goals.
    It has become transparent that DoL is either unable or 
unwilling to give the requisite attention to veterans' 
employment issues that the American Legion knows our veterans 
deserve.
    In short, the American Legion believes that the best way to 
improve DoL-VETS is to transfer the JVSG and HVRP program to 
VA. While we continue to believe that there is a place for VETS 
within the Department of Labor to handle the ancillary 
functions with that office, we know that veterans will be 
better served if these two programs were administered by the 
Department of Veteran Affairs.
    The American Legion understands that our proposal is 
neither an easy task nor is it amendable to all the 
stakeholders, but we know that this is the right thing to do 
and the right time to do it because, frankly, our veterans 
deserve better.
    The American Legion is ready to work with DoL, VA, and 
especially this sub-committee to ensure that interagency 
transition of the JVSG and HVRP programs occur as seamlessly as 
possible. Thank you, and I look forward to any questions you 
may have.
    Dr. Wenstrup. Thank you, Mr. Leghorn. Mr. Weidman, you are 
now recognized for five minutes.

    [The prepared statement of Davy G. Leghorn appears in the 
Appendix]

                   STATEMENT OF RICK WEIDMAN

    Mr. Weidman. Thank you, Mr. Chairman and members of this 
committee, for allowing us to participate in this hearing 
today.
    For over 30 years VVA has believed in a wellness model 
which is that all, and I mean all, services offered by the VA 
and by other entities should be directed to the flashpoint of 
assisting veterans to get to the point where they can obtain 
and sustain meaningful employment at a living wage.
    And that is really the heart of the readjustment process, 
particularly for those more recently separating veterans, but 
also for veterans who, at a later point in their life, have 
been hit with neuropsychiatric wounds coming to the fore, et 
cetera, and it (indiscernible) serious problems.
    VETS centers can help, but they can't help, and you are 
asking people to go through what happened to you on the field 
of combat, to get all dressed up, all cleaned up, dried out, 
drug free, in order to do what? To stand on the corner and not 
be unemployed again? That's not going to work and it's going to 
focus into a recycle or a churning, if you will, of our intent.
    In regard to the $175 million, I was interested, and I 
apologize to you, I was told that I would be out in time to, at 
the clay hut signing, to be here by 2:00, Mr. Chairman, and 
that turned out not to be the case. A lot of people fight to 
get in the White House; I was in a position where I couldn't 
get out. So I apologize.
    But the point is, is that all the readjustment counseling 
and the millions we spend, billions, on VHA to help people get 
up-to-speed, if we can't help them get a job and keep that job, 
then it all is for naught. Directly affects, and I'm sure you 
know, Doctor, from your own practice, that people who are 
unemployed don't go to the podiatrist when they should, they 
don't go to the dentist when they should, they don't do all 
kinds of things when they should, and they don't eat right 
because they don't have money.
    So the best readjustment program that we can have ever is 
meaningful work at a living wage. It's as simple as that. And 
that's true for disabled vets of any generation, for veterans 
who are at risk who have run into difficulties later in their 
life, often related back to their military service, and it 
certainly is true for the young people coming home today.
    A hundred and seventy-five million is probably not enough 
for the DVOP, LVER, or the State Grants as they now call them. 
I did notice, and maybe it was in the verbal testimony, but in 
the statement it didn't say how many DVOPs and LVERs they get 
for $175 million, and it didn't say anything at all in there.
    The other thing is I would like to bring your attention to 
the fact that there are no good measures for how effective they 
are on enforcement of USERRA. The problem there is it often 
takes too long, and justice delayed is justice denied when it 
comes to getting your job back. The same is true of the other 
enforcement functions that Labor has. There's no real 
monitoring on all of that.
    The HVRP program, or Homeless Veterans Reintegration 
Program, is the most cost-efficient, cost-effective program 
operated by the Department of Labor. And they actually do 
placements as opposed to what the rest of them do, which is go 
look at UI tax reports the quarter later, and you may or may 
not have gotten a job because something somebody did at a DoL 
facility or a DVOP or LVER did, but there's no way of putting 
that together because they don't measure placements.
    If you look on Page 5 of my testimony about the vision and 
mission statement of VETS, this is straight from their Web 
site, sir, ``Meaningful and successful careers for all vets. 
VETS proudly serve veterans and service members. We provide 
resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities, 
and protect their employment rights.''
    Nowhere in that does it say we exist to help get vet jobs. 
It's as simple as that. And that is the task at hand. The proof 
is in the pudding. The proof is in the action. And it used to 
be, once upon a time, placements over there at the Department 
of Labor and the state workforce development agencies, but they 
have gotten out of that business a long time ago.
    Just to reinforce Mr. Leghorn and the Legion, it is past 
time to move this function out of the Department of Labor where 
we are always in the position of tugging at somebody's sleeve, 
and usually being ignored. And it is an anti-veteran atmosphere 
that is driven by the Employment and Training Administration, 
ETA. It's been that way all of my adult life, since I first 
started to try and help other vets with employment problems in 
the early `70s, and it continues to be that way today.
    The cast of characters, the persons change, but the 
corporate culture continues on. We need a fourth division of VA 
and I encourage the committee to do that before this Congress 
is up. I thank you very much, distinguished Members of the 
committee, and for the opportunity, and look forward to working 
with you on solving some of these problems. Thank you.
    Dr. Wenstrup. Thank you, Mr. Weidman. Mr. Varela, you are 
now recognized for five minutes.

    [The prepared statement of Rick Weidman appears in the 
Appendix]

                  STATEMENT OF PAUL R. VARELA

    Mr. Varela. Chairman Wenstrup, Ranking Member Takano, and 
members of the sub-committee, good afternoon. On behalf of 
Disabled American Veterans and our 1.2 million members, all of 
whom were wounded, injured, or made ill in wartime military 
service, I am pleased to testify today on issues related to the 
release of the President's fiscal year 2016 budget request for 
DoL's--VETS program.
    The Administration requests $271 million in funding to 
operate the VETS program for fiscal year 2016, an increase of 
roughly $1 million over that requested for fiscal year 2015. A 
hundred and seventy-five million dollars is requested to 
support the JVSG program which funds DVOP and LVER activities. 
A hundred and seventy-five million dollars was also requested 
for fiscal year 2015.
    Veterans who are seriously wounded, injured, or made ill as 
a consequence of military service face daunting challenges and 
sometimes outright barriers to obtaining and maintaining 
substantial and gainful occupations and trades. Adequate, 
reliable, and effective support and services must be provided 
to ensure their economic prosperity.
    DAV understands the vital role employment plays for all 
veterans, and especially for our wartime disabled veterans. 
Realizing the challenges they continue to face in the 
employment marketplace, we established the new national 
employment department in 2014. One key element of this mission 
is a partnership DAV formed with RecruitMilitary, a full-
service military-to-civilian recruiting firm providing free 
online and offline products to connect employers, franchisers, 
and educational institutions with veterans and their spouses.
    Chairman Wenstrup, and members of this sub-committee, in 
order to achieve better outcomes for veterans, VA programs 
designed to promote veterans' financial security such as those 
focused on employment, training, vocational rehabilitation, and 
education should be consolidated into a fourth new 
administration within the VA equivalent to VA's Health 
Administration, Benefits Administration, and National Cemetery 
Administration.
    Headed by a new Undersecretary, facilitation of these 
federal programs dealing with economic opportunity assistance 
for veterans, their dependents, and survivors would fall within 
this administration's purview. We envision the new VA 
administration consolidating existing programs and offices in 
VA with responsibility for veterans vocational rehabilitation, 
employment, training, transition, and economic empowerment as 
well as the transfer of the VETS program in its entirety along 
with all its resources and personnel from DoL to VA.
    Within DoL's VETS program, DVOPs provide intensive services 
to targeted veterans, primarily to the service disabled, and 
LVERs conduct local employer outreach to assist veterans in 
gaining employment. Within VA, vocational rehabilitation 
specialists, VRSs, provide veteran services that are almost 
identical to those provided with their DVOP and LVER 
counterparts. But VRS services are provided only within the VA 
setting.
    VRSs identify and provide suitable training and placement 
services for individual veterans being served by the program. 
To guide and monitor individual progress and then provide 
follow-on support throughout the training and job adjustment 
periods.
    The VRSs provides personalized services that involve 
ascertaining the training requirements to meet individual 
objectives, and also provide placement services that involve 
identifying suitable employment opportunities or maintaining 
day to day contact with employers, and keeping alert for job 
and small business opportunities.
    DVOPs, LVERs, and VRSs display many commonalities. However, 
VRSs primarily provide assistance to veterans with compensable 
service connected conditions. The VRS is empowered to authorize 
VA payments for expenses associated with a service disabled 
veteran's participation in courses of education and employment 
training.
    Given the nature of their shared responsibilities, 
collaborations should be occurring among DVOPs, LVERs, and VRSs 
but generally they operate in separate spheres. Because VA and 
VETS are actively engaged in providing similar services which 
can appear to be overlapping or even competing at times, 
veterans often must negotiate between two federal entities to 
obtain individualized services, a situation that can become 
cumbersome and confusing for the individual veteran, and 
thereby discourage participation.
    Finally, we believe that a new VA administration 
responsible for managing these programs is logical, responsible 
through a legislative mandate. Plus, important to DAV, 
consolidation offers the potential to streamline and enhance 
the prospects in training possibilities for wounded, injured, 
and ill veterans for them to overcome employment obstacles and 
provide meeting opportunities in their post-service lives.
    Thank you, Mr. Chairman, and members of this sub-committee. 
DAV welcomes the opportunity to work together to see this 
justified reform enacted into law. This concludes my testimony, 
and I am prepared to answer any questions the sub-committee may 
have.

    [The prepared statement of Paul R. Varela appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. Varela, and I thank you all 
for your testimony today. And I just have to say in response to 
one of the things that Mr. Weidman brought up. I would agree 
that the best social reform or opportunity for an independent 
life that anyone has is a job. That is the best way out. And 
very often, people, either veterans or non-veterans, they make 
their budget and adapt it by giving up healthcare, and that is 
a problem as well. And I recognize that and appreciate your 
comments.
    With that I am going to yield myself five minutes for 
questions. And my question is, can you comment on your opinion 
or how you perceive the level of funding for fiscal year 2016 
for the VETS program, and what this might say about the 
priority of that program within DoL?
    Mr. Weidman. We are at the bottom of the totem pole, if we 
are on the pole at all. And in terms of priorities, the only 
time we are a priority is when they hold ceremonies and to 
salute the all American veterans that they hold in various 
venues and in Frances Perkins buildings are empty exercises. 
They are by invitation only. No homeless veterans or unemployed 
veterans get an invitation.
    And the rhetoric rings hollow, as hollow and echoes in the 
great hall of the Perkins building, at least to us. And, to me, 
I frankly, I don't mean anybody ill or disrespect, but I flat 
quit going because it was ashes in one's mouth to hear them 
saying things that I knew they weren't trying to achieve.
    And that's what we need. We need an agency that pays 
attention and takes your role and Mr. Takano's role, and all of 
distinguished members of this committee serious as a heartbeat 
when it comes to whether or not they are doing the right thing 
by veterans in the field.
    So I will just say that because of a lack of 
accountability, we can't recommend an increase in any part of 
that budget, with the exception of HVRP which should be at the 
fully authorized level of 56 million as opposed to 37. I mean I 
never understood what part of this people don't get? Jobs for 
veterans who are homeless to get off the tax dole and onto the 
tax rolls. I mean it makes no sense to me. So that is where we 
ought to be putting our money where we are getting the bang for 
the tax payer dollar, sir.
    Mr. Leghorn. So with regards to the budget, it clearly 
shows that Labor's priority is in funding other programs and 
not JVSG or HVRP. We understand that the Secretary is 
responsible for employment for everyone and not just for 
veterans, so we understand to a certain degree why that isn't 
given the time of day where they are within Labor.
    And one thing we would like to note is that if DLS is 
correct and unemployment is relatively low now compared to 
where it was before, what we don't understand is what would 
account for the massive increases in budget requests for other 
non-veterans' employment programs.
    You know, 70 percent of our transitioning service members 
claim some sort of service connected disabilities, and even if 
under a current model where DVOPs are only seen, 20 percent of 
the veterans population that are disabled or have various new 
employment with the anticipated draw down, that 20 percent is 
about to grow and the current budget request is not getting our 
DVOPs ready for that.
    Dr. Wenstrup. Mr. Varela.
    Mr. Varela. Thank you, Chairman. My colleague to my right 
here put on a very good point. We have about 250,000 service 
members that are leaving active military service every year, 
and I think around 2017 or 2020 we are excepting to see about a 
million of them to have separated between 2013 and that time 
frame.
    So how many of them are going to require employment 
services? And we feel there is going to be a great number of 
them that require employment services. And looking at their 
budget, we don't feel that that displays a sense of urgency, we 
don't feel it is adequate.
    Dr. Wenstrup. Well, I thank you all. And now recognize 
Ranking Member Mr. Takano for any questions he may have.
    Mr. Takano. Thank you, Mr. Chairman. This is a very 
informative hearing, I really appreciate that we are doing it. 
Mr. Weidman, you mentioned that there is no placement, can you 
elaborate on that some more?
    Mr. Weidman. Concerning as to what, sir?
    Mr. Takano. You were referring to a lack of job placement. 
Did I hear you correctly in your testimony?
    Mr. Weidman. You did. And if you look carefully, they don't 
actually measure placements anymore and they haven't for a long 
time. If you press them hard at Employment and Training 
Administration or at the state workforce development agencies 
what business they are in, they will tell you they are in the 
information-sharing business. That is not what our vets need. 
They need one-on-one counseling, particularly the priorities 
that we should be focusing on.
    This is true for 40 years that folks have been trying to do 
this on the cheap, particularly for combat veterans returning 
or veterans with multiple problems, and you can't do it on the 
cheap. Trying to serve--we serve hundreds and thousands or 
hundreds of thousands of people. All those stats they put out 
are post hoc ergo propter hoc numbers. What I mean by that, 
they are saying, they look at the UI tax rolls and if you go 
into a career center in your district and you enroll, they call 
that counseling. And if you then show up three months later 
after they have done nothing else on the UI tax rolls as being 
employed, they take a positive termination and they said, well, 
they have a job because of us. Well, no, you don't, you know.
    And we need to focus particularly on the veterans with 
problems and that is why the veterans staff is there. And they 
are not allowed to do their job and that is why we need to move 
much better control over to VA. Many of them will stay with the 
state workforce development agencies if the state workforce 
development agencies will finally let them do their job, but if 
not, then they should contract with whoever in the community. 
And it is just as simple as that. The job is not getting done 
and the bottom line for us is does it work in California and 
does it work in Ohio and does it work wherever people are 
delivering this service, and it is not happening. And that is 
not a rap on the DVOPs and LVERs. Some of the finest people I 
have ever met are DVOPs and LVERs who work their tail off and 
do great things for vets no matter how much they are punished 
for doing the right thing, and that is what we have to get away 
from.
    Mr. Takano. Are you familiar with a program in California 
out of the National Guard called Work for--it is called Work 
for Warriors, right? Work for Warriors that does direct 
placement. It has now been expanded to include our veterans 
population. If you are not, I mean, I just wanted to be--I am 
interested in--you caught my ear, because I know that this 
program does direct placement for the Guard and it has been 
very successful for about $500 per placement, which is fairly 
inexpensive compared to the other programs that are out there. 
But you also--so you can answer. Have you heard of it at all 
or----
    Mr. Weidman. I'm sorry?
    Mr. Takano. Have you heard of the program Work for Warriors 
in California?
    Mr. Weidman. Actually, I have. I haven't worked as much 
recently with--but when I was in New York, which was at that 
time the second largest program, DVOP/LVER program in the 
country, I had a lot of contact with EDD in California and with 
my counterpart in California. And we did a lot of things 
together, including putting together outreach programs that 
went to blinded veterans and worked in terms of getting people 
substantive jobs, they were placements. But it is intensive, 
you know, you can't do it on the cheap and expect it to work.
    I will check out the program that you are talking about, 
sir.
    Mr. Takano. Okay.
    Mr. Weidman. And I will be happy to talk----
    Mr. Takano. I appreciate your feedback to us.
    Mr. Leghorn, you mentioned that you would like to see in 
the TAPs some work with the Education Department. Can you 
elaborate on what you mean by that?
    Mr. Leghorn. As you know, it is an educational track within 
TAP GPS and the American Legion has always felt that the 
Department of Education needed to take a larger role in coming 
up with that curriculum, so that is what we were referring to.
    Mr. Takano. And why? What do you find that is missing that 
you are asking for that to happen?
    Mr. Leghorn. Mr. Takano, can I take this question for the 
record? I am actually not the person that works the education--
--
    Mr. Takano. Sure. I am curious, because I want to know what 
is missing. That is fine.
    Mr. Leghorn. Absolutely, I will provide those answers for 
you.
    Mr. Takano. That is fine, that is fine.
    Dr. Wenstrup. my time is up.
    The Chairman. Mrs. Radewagen, you're recognized for five 
minutes.
    Mrs. Radewagen. Thank you, Mr. Chairman. And I want to 
thank the panel.
    Mr. Varela, I want to applaud DAV for taking initiative to 
partner with RecruitMilitary to help transitioning service 
members find employment. Have you coordinated your efforts with 
DVOPs and LVERs? And if you have, do you find their services to 
be helpful or harmful to your efforts?
    Also, how do you market this new service to service 
members?
    Mr. Varela. Congresswoman, the feedback that we get from 
the field relative to DVOP and LVER activities is they don't 
work well with us. And what I mean us, DAV and potentially 
maybe some other VSOs as well. Again, they are kind of 
isolated.
    We do recognize an outstanding DVOP and LVER within the 
community. It is part of DAV's annual award program, but those 
are the two that rise to the top and are really engaged with us 
trying to help veterans find employment. But oftentimes there 
is a big disconnect, so the relationships aren't that stable, 
aren't that effective.
    And the second question you had about RecruitMilitary that 
relationship and how we market it and how we----
    Mrs. Radewagen. Yes.
    Mr. Varela. Okay. So basically what we will do is we use 
our media online services to pump out information. We will send 
out notices within the communities. That is the extent of my 
knowledge, that is how deep I go with it. I can certainly get 
you more information on the full extent of our outreach within 
communities.
    Mrs. Radewagen. Thank you, Mr. Varela.
    Mr. Varela. Yes, ma'am.
    Mrs. Radewagen. Thank you, Mr. Chairman.
    Dr. Wenstrup. Mr. McNerney, you are recognized for five 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman. Some interesting 
testimony. Thank you.
    My first question. Mr. Weidman, you were pretty clear about 
your feeling that the employment services should be run out of 
the VA instead of the Department of Labor. Mr. Leghorn, do you 
concur with that assessment?
    Mr. Leghorn. So currently the American Legion believes that 
there is still a place for vets within the Department of Labor. 
However, the two programs, HVRP and JVSG, must move. And then 
the reason why we believe that there should still be a veterans 
office within Labor is that during the transition there still 
needs to be a go-between and having an entity there would 
provide that go-between.
    Mr. McNerney. Mr. Varela?
    Mr. Varela. Congressman, I was taking down some notes from 
the Congresswoman. If you wouldn't mind repeating the question?
    Mr. McNerney. Sure. Mr. Weidman was pretty clear about his 
belief that the employment services ought to be run out of the 
VA instead of the Department of Labor, I was wondering if you 
concurred with that.
    Mr. Varela. We do concur with that.
    Mr. McNerney. Thank you.
    Mr. Leghorn, I was going to follow up on one of your 
comments. How effective do you feel that Web sites can be in 
helping vets find meaningful employment with living wage?
    Mr. Leghorn. Congressman, did you say the VEC?
    Mr. McNerney. No, no. How effective do you think Web sites 
can be in helping veterans find meaningful employment?
    Mr. Leghorn. Web sites help some people, and at other times 
it doesn't. As we have seen in a particular state where a large 
swath of its population is in rural areas, the folks that the 
DVOPs and LVERs need to help most don't have Internet 
connectivity. And so in that instance, it doesn't work. And we 
also know that the Internet doesn't exactly help people, it 
doesn't triage people for priority of service adequately. You 
really need another veteran or a DVOP to do it. Just a veteran 
job seeker punching in some information sometimes, a lot of 
times, are precluded from DVOP services from the get-go when 
they are registering on a jobs link Web site.
    Mr. McNerney. So is the availability of personal services, 
is that sort of a barrier then which forces people to go to a 
Web site or try to go to a Web site?
    Mr. Leghorn. Can you repeat that question, sir?
    Mr. McNerney. Well, we are talking about whether Web sites 
can be effective or not, but what would make a veteran go to a 
Web site as opposed to going to seek personal service from the 
Department of Labor?
    Mr. Leghorn. Well, when you are talking about services, 
most veterans I know would go out and seek face-time type 
services. But in terms of job search, the vast majority of 
veterans I know do that online.
    Mr. McNerney. Well, I think--go ahead.
    Mr. Weidman. I was just going to make the comment, sir, 
there is no single silver bullet. It is not one way, it is all 
of these together. I will use as an example Veterans 
Entrepreneurship Task Force has joined with VETS Group, which 
is the Veterans Employment Training outfit. And we are having 
job fairs around the country working with the airline industry 
and also small business matchmaking with larger employers in 
that area. We always make sure to involve the local workforce 
development agency and give them every chance, the local vet 
center and VocRehab from VA, and also everybody who comes to 
these is registered with vetjobs.com, which was selected by 
Business Week as the top Internet job board, period. Not for 
vets, but the top board, period, because it works and there are 
a lot of tools on there. It works for a lot of people, but as 
Mr. Leghorn said, there are many people who need one-to-one 
contact.
    Mr. McNerney. Thank you. Mr. Chairman.
    Dr. Wenstrup. Miss Rice, you are recognized for five 
minutes.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Leghorn, so I guess all three of you agree that you 
would rather see the employment aspect of helping veterans be 
run out of the VA instead of the Department of Labor. My 
concern is that the VA is, as we all know, the largest 
consolidated healthcare provider in the country. How and why do 
you think they are best suited or qualified to run an 
employment training program?
    Mr. Leghorn. The reason why the American Legion believes 
that VA is the right home for JVSG and HVRP is because Labor is 
not giving these programs the right type of attention that our 
veterans deserve. And so----
    Miss Rice. Why is that? Why do you think that is?
    Mr. Leghorn. So the American Legion looks at transitioning 
services for veterans in a holistic way and, you know, what 
better way to do it than to put employment services with 
healthcare services. I mean, it just makes sense because, as 
Mr. Weidman said before, one of the best ways to help somebody 
recover is to get them a job. And not to mention that the 
Department of Veterans Affairs has only one singular focus and 
that is on veterans, spouses and their orphans, period. Labor 
has a lot of other focuses and things that they have got to 
worry about, whereas the Department of Veterans Affairs, again, 
does not.
    Miss Rice. I don't ask the question because I necessarily 
disagree with that, but obviously we have seen, we have had 
hearings about the problems within the VA themselves and, while 
a great Secretary in charge, it is still a lot of reforms that 
have to take place.
    Mr. Weidman, if the VA were to establish a fourth 
administration, as you have suggested, to oversee veterans 
employment, any claim coming under USERRA, who would handle 
that claim? And I ask this because we have seen claim backlogs 
at the VA before in the past and would this just be piling more 
claims onto a plate that is already full?
    Mr. Weidman. Well, a lot of these things were add-on duties 
to the DVET and they weren't set up to do them. And that is why 
there is no enforcement of veterans preference with federal 
facilities across the states for two reasons. One is, nobody 
measures and gets on the DVETs whether they do a good 
investigation or an investigation at all and, number two, it 
takes forever. If I come home and I don't get my job back, I am 
not going to be able to wait. I have got to make car payments, 
I have got to feed the kids, I have got to make mortgage 
payments. If they blow me off while I file that complaint, I am 
going to go take three other jobs but don't pay that much while 
I look for a good one in order to be able to meet my daily 
needs. And people hear about this stuff, the vets know. They 
ask them, why didn't you file a complaint? And they said 
because I didn't have a year and a half to wait around, I had a 
family to feed. So, I mean, that is just one example.
    The implication is, do we think that the VA is a perfect 
solution? And the answer to that I can assure you is--my family 
gets worried that sometimes I get so agitated about VA that I 
am going to have the big one, as they say, and that is going to 
be the end of me just dealing with them. And as a matter of 
fact clinicians literally say that dealing with veterans 
benefits administration is contraindicated for the PTSD 
patients, because it sets them back six to twelve months in 
therapy because it is so crazy.
    We have got to take the empowering functions and get it 
away from comp and pen and establish a corporate culture of 
accountability, of independence in the new administration. And 
if you have got to let go 48 SESs and 60 GS-13s in order to be 
able to create that culture of independence, then so be it, but 
it needs to be physically and culturally separated from what is 
in there now and wherever it is and certainly when you move 
over there. That is why the redress mechanism of the 800 number 
is absolutely essential. Without that redress mechanism that is 
effective, I don't care where you put the services, it is not 
going to be for real at the local level.
    So what we are saying is several things.
    Miss Rice. Mr. Weidman, and forgive me, because I apologize 
for coming in late, but my question and I don't believe it has 
been asked, has the DoL-VETS 100 federal contractor reporting 
resulted in increased hiring of veterans? And, if not, what can 
be done? Or Mr. Varela?
    Mr. Weidman. Are you asking is it effective? The answer is 
no. It is certainly not what Gerry Solomon envisioned. And it 
was Mr. Solomon from upstate New York and active in the 
Republican House leadership at the time who carried the ball on 
that. And, unfortunately, there is no bang for the buck and a 
lot of that has to do with the Office of Federal Contract 
Compliance, which is not particularly useful. Nobody takes that 
information and does anything with it, even asking for job 
listings.
    And so it once again has to do with the lassitude of the 
Department of Labor as an institution--I am not attacking 
individuals--as an institution towards veterans as a group, we 
are just another group. Well, we are not just another group. We 
cut across every other subset of the American population. We 
are black, we are white, we are women, we are men, we are 
Native American, we are Irish, we are Jewish, we are whatever 
it is, and we are of all economic strata. And they don't get 
that and so veterans are not a priority for them. We at least 
have a fighting chance if we put it at VA.
    Miss Rice. Well, I want to thank you all so much for your 
incredibly passionate advocacy. And I yield back my time, Mr. 
Chairman. Thank you.
    Dr. Wenstrup. Thank you. We have time for a couple more 
questions and, with that, I would like to ask one.
    Mr. Leghorn, you talked about the Texas model and, Mr. 
Weidman, you talked about a corporate culture. And in corporate 
culture, you look for best practices and things that are 
working. So I would like to take a second to talk about 
something that is working well and also get your opinion. Is 
the methodology of what Texas is doing the reason it is working 
well or is the Texas economy a part of it, or both?
    Mr. Leghorn. Well, I definitely believe the oil industry in 
Texas has something to do with it. But you still can't ignore 
that, when they put everything within one commission. I mean, 
that is what the American Legion has been talking about all the 
time with the holistic approach. That commission becomes a 
clearinghouse of services from healthcare to employment and it 
is all exclusively there for veterans. And, again, with a 
Veterans Commission they too, like the Department of Veterans 
Affairs, have a singular focus and that is veterans. And they 
also operate I believe independent from other agencies, which 
makes them a little bit less susceptible to state politics.
    Now, I also know that Texas puts their own money into the 
program at the services level, so that every veteran that walks 
through the door is at least greeted or triaged by a veterans' 
representative and that is something that the American Legion 
has always asked for. With the Commission, we also know that 
they have better accountability of the dollars from JVSG, 
because that comes straight from federal and goes directly to 
the Commission, as opposed to any other agencies, and their 
line of reporting is also a little more linear than a lot of 
other states.
    Now, the only other state I know that has a Veterans 
Commission is the State of Wisconsin. I just wanted to add 
that.
    Dr. Wenstrup. Thank you very much, I appreciate that.
    Do you want to add something?
    Mr. Weidman. I did. Texas is a little bit different, but it 
is a model that could be adapted to other states. And as you 
know, unlike most states, they have set up many commissions. So 
that the Texas Railroad Commission, the Texas Veterans 
Commission doesn't report to the governor actually, it reports 
to the commission. And certainly they take seriously what the 
governor says, but that is because of their respect for whoever 
is occupying the governor's chair. But it is the same thing of 
independence that you are not being--your resources aren't 
being purloined to go to other purposes other than vets. It is 
a sharp focus and they maintain a sharp focus and have 
communicated over the last three, four years via social media 
with the folks who actually work at the service delivery point 
across Texas and I find them just amazing. They have created 
the corporate culture that we are talking about.
    Dr. Wenstrup. Thank you very much.
    Mr. Takano, you are recognized for five minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Weidman, you used the word, you know, in Texas the 
independence prevents resources from being purloined. Are you 
saying that what is going on with DoL-VETS, this $250 million--
billion dollar--it is $250 million, is it? So a quarter of a 
billion dollars is going over to DoL, that the focus is not 
there on veterans, there is a kind of diffusion of that 
resource somehow into its other mission, the larger mission of 
DoL?
    Mr. Weidman. Well, I am, and it is particularly true at the 
state workforce delivery level. You have got admin overhead, 
indirect admin overhead that ranges to over 30 percent. And I 
believe the Congress finally had to cap it, because in one 
state it went up to 39 percent. Indirect, that doesn't account 
for direct overhead that was taken out of the grant. So the 
grants were not going very far and you really only had with the 
DVETs the nuclear option, they don't have any other power. They 
can yank the grant and declare the state noncompliant and shut 
off the money all together, but at that point governors get 
involved, senators get involved, and you better really have 
your ducks in a row. So you can't pit the nuclear option, so 
you can't do anything about an office manager who is misusing 
DVOPs and LVERs.
    Mr. Takano. Okay. So you helped clarify. So the chunk of 
money that goes to the states in the form of grants, you have 
all these local employment offices and you are saying that is 
where you were painting the picture of how this money loses its 
focus on vets.
    Mr. Weidman. In 1980, DVOPs and LVERs made up about between 
five and eight percent of the staff in the local job services 
office. Today, it is often half the staff. And so they are 
paying much more of the high proportion of keeping the lights 
on, the rent, the parking lot plowed, et cetera, than we were 
in years past. We get less and less bang for the buck every 
year, because it is not going into personnel who are trained 
and backed up to actually meet with veterans.
    Mr. Takano. But is that because we are failing to fund the 
DoL function? The DoL funding that funds the non-veteran 
portion of it, you are saying that the veteran portion has 
become a greater percentage of the personnel that is funded 
there and they are not dedicating their attention and time to 
the veterans as they should?
    Mr. Weidman. It is two things. Wagner-Peyser funding 
continues to go down and, if you have 100 people coming into 
the office and 20 of them are vets and half of your staff is 
DVOP and LVER, what are you going to do? You are going to tell 
the people to serve the people who are walking through the door 
as opposed to concentrating on the mission. And so what happens 
is people get into the people-processing business as opposed to 
what all the folks in that office are supposed to be doing, 
which is helping people get a job, an actual job. Not a 
program, a job.
    Mr. Takano. Okay. Thank you, Mr. Chairman. I yield back.
    Dr.Wenstrup. Mrs. Radewagen, you are recognized.
    Mrs. Radewagen. I have one last question for Mr. Varela and 
Mr. Weidman. Can you please tell us how you believe a fourth 
administration would streamline the delivery of education and 
training benefits to veterans and bring greater visibility to 
these vital programs?
    Mr. Varela. It is a win-win situation, in our opinion. 
First, it will alleviate the claims and appeals 
responsibilities already being managed by the Veterans Benefits 
Administration. So right now, kind of circling back to the 
Congresswoman's question about VA's plate being full, right now 
they have three plates, we would be adding a fourth plate 
potentially. And on that fourth plate they would handle 
education, employment, vocational rehabilitation, USERRA 
matters, as was mentioned earlier. It would be again taking 
that staff from DoL that performs those functions and using 
them under the fourth administration. Also, veterans requiring 
education services and employment services would go one place. 
They would go to the VA and they would deal with that 
administration for all of those needs.
    Mr. Weidman. Twenty five percent of DVOPs are supposed to 
be out-stationed at another facility, veterans facility, they 
have never hit that 25 percent of DVOPs nationally at other 
facilities. And where you really need them is in the VA vet 
centers or readjustment counseling centers and we now have 280 
of those across the country. Without the employment function as 
part of the treatment modality and the treatment team, the team 
is flying on one wing, if you will, because all of the efforts 
of the vet centers, good vet centers over the years has been to 
keep people employed and to keep families together. People went 
to the hospital if they wanted to get comp, they went to the 
vet centers to get well and to keep their families together and 
to keep their jobs. So if it is all part of VA then it will be 
much easier to have DVOPs stationed in those vet centers and as 
part of the treatment team, and same with VocRehab, which are 
supposed to be working together. It happens maybe three or four 
places in the country where they really work together all the 
time.
    Mrs. Radewagen. Thank you, gentlemen. Thank you, Mr. 
Chairman.
    Dr. Wenstrup. Mr. McNerney, you are recognized for five 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Weidman, I appreciate when you spelled out that you 
thought the employment services should be run out of the VA, 
but at the same time the VA often drives you crazy and it is a 
big bureaucracy, you know. Do you believe that the VA is 
improving now and in such a way that it could take on another 
function like that and actually be effective? Or do you think 
it is just in the nature of the VA since it is focused, as Mr. 
Leghorn said, toward veterans that would make it more 
effective?
    Mr. Weidman. Is it actually going to work? The answer to 
that, Congressman, is I don't know. Do I know that what we have 
now ain't working? I do know that what we have now ain't 
working. We have made all kinds of suggestions, we have tried 
to get legislation through that would have money follow 
performance, and we have failed on that for the last 20 years. 
So it is time to try something new, because the young people 
separating need a job now, they don't need a job in 15 years. 
By that time the die will be cast, they will either have a 
career or they won't.
    So it is not just putting it at VA, we resisted that when 
they tried to do that in 2003 of just throwing it over there 
under VocRehab. And VocRehab has improved dramatically in the 
last 15 years. But it still needs to be a separate division, if 
you will, and away from comp and pen and away from the gimme 
mind set and with a whole new corporate culture. So it is the 
corporate culture that you are talking about and the focus on 
accountability of this number. This number also holds managers 
accountable. It is not just the DVOPs and LVERs, it holds the 
whole operation accountable and if it is all under VA.
    Mr. McNerney. Mr. Chairman.
    Dr. Wenstrup. Thank you. Miss Rice, you are recognized for 
five minutes. No further questions?
    If there are no further questions, I want to thank everyone 
here today for taking time to come out and share your views on 
the President's proposed fiscal year 2016 budget for vets, and 
for discussing how we can better improve employment outreach at 
the local level and long-term outcomes for our service members 
and veterans.
    And, Mr. Weidman, if you have the big one here, I will do 
my best to bring you back.
    Mr. Weidman. I am grateful for that, sir.
    Dr Wenstrup. Thank you. And, finally, I ask unanimous 
consent that all members have five legislative days to revise 
and extend their remarks and include extraneous materials.
    Without objection, so ordered.
    This hearing is now adjourned.
    [Whereupon, at 4:02 p.m., the subcommittee was adjourned.]

                                APPENDIX

              Prepared Statement of Chairman Brad Wenstrup

    Good afternoon everyone and I want to welcome you all to the 
Subcommittee on Economic Opportunity's hearing today entitled, ``A 
Review of the President's Fiscal Year 2016 Budget Request for the 
Department of Labor's Veteran Employment and Training Service (VETS).''
    DoL's VETS manages several programs for servicemembers and veterans 
alike.
    Within VETS is the Jobs for Veterans State Grant program which 
funds Disabled Veterans Outreach Program Specialists--DVOPS--and Local 
Veterans Employment Representatives--LVERs; the Homeless Veteran 
Retraining Program which provides grants to providers for job training 
services and stand downs for homeless veterans; the employment workshop 
portion of the Transition Assistance Program (TAP); enforcement of the 
Uniformed Services Employment and Reemployment Rights Act (USERRA); and 
the promotion and outreach for veterans hiring throughout the country 
and Federal Government.
    These are all very critical services and they are all vital to our 
servicemembers' and veterans' wellbeing after they leave active duty. 
As more and more men and women are returning from deployments or 
separating from the military, it is imperative that we place a focus on 
these individuals and the services that we provide to them through 
VETS' programs while also helping veterans of past conflicts who face 
under-employment and unemployment issues.
    Unfortunately, for years, it has been clear that Senior Leaders at 
the Department of Labor do not put the focus that is needed on the 
Veterans Employment and Training Service.
    And to be quite frank, many in the veterans' community have said 
over and over again that more often than not, DoL has ignored the 
agency all together. This is not just a current issue and it is not a 
political one, this seems to have been a trend throughout many 
administrations, regardless of party.
    I know we can all agree that this country's veterans deserve to be 
the top priority, yet I worry that DoL does not always prioritize and 
coordinate their services for veterans as well as they could and 
should. The President's FY 2016 budget for VETS is once again basically 
flat-lined while the rest of the Department is not. The budget is the 
ultimate list of an Administration's priorities and its clear where 
DoL's ``true'' priorities lie.
    In addition to reviewing the President's proposed budget for VETS, 
I also believe today's hearing is an important opportunity to examine 
DoL's ability to measure long-term outcomes and the Department's 
efforts to coordinate with the Department of Veterans Affairs and the 
efficiency of JVSG-VETS' state grant program.
    JVSG, which funds DVOPS and LVERs, has been a constant concern of 
this subcommittee over the years, and time and time again we have heard 
concerns from the VSO community on the outreach, or lack thereof, that 
these DVOPS and LVERs are doing to help veterans find jobs. What is 
truly upsetting is that despite spending millions and millions of 
dollars on this program over the years, VETS is still unable to 
accurately track if the services provided by DVOPS and LVERs led to a 
veteran finding meaningful employment.
    Reading through testimony for today's hearing, and previous 
hearings held by this subcommittee, it is clear that VSOs and other 
stakeholders are ready for a change; a concrete change, to bring better 
coordination between DoL and VA, better accountability and efficiency 
within VETS' programs, and better data to show what VETS is doing to 
provide positive long term outcomes for our nation's veterans.
    We have been told by VETS time and time again that this time it 
will be different, and that this time they have a seat at the table at 
the Department of Labor. But it doesn't seem that anything is ever 
different. As the old saying goes, the definition of insanity is doing 
the same thing over and over again and expecting a different result.
    In this same vein, it appears that many are pushing to create a 4th 
administration at VA and move VETS out of DoL to VA, a concept that has 
been discussed and included in legislation in previous Congresses. I 
look forward to hearing more about this proposal mentioned by the VSOS 
as well as other avenues we can explore to improve employment 
opportunities and consistency of services provided by DoL and the State 
Grant Program across the country.
    Before I turn it over to the Ranking Member, I just want to 
reiterate that I believe that the new Senior Leadership team at VETS is 
trying to turn the ship around and by and large the employees at VETS 
do good work, but they are only a small piece of the puzzle at an 
agency as large as DoL. The problem is that no matter how small of a 
player VETS is within the larger mission of the Department the services 
they provide to our nation's veterans are too important to be 
overlooked.
    That is our challenge here today and I look forward to hearing from 
everyone about how we can improve the performance and focus of this 
program.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






               QUESTION FOR THE RECORD, Paul Varela, DAV

    Question 1:

    Do you think the state level veteran employment specialists funded 
by DOL are a means of last resort for veterans seeking employment?

    Answer:

    Whether state level employment specialists are considered a first 
or last resort is difficult to assess. Nowadays, veterans seek 
employment through the internet. If a veteran seeks assistance through 
a state employment specialist, that contact could be an indication that 
other avenues of securing employment were unsuccessful, so the veteran 
is seeking a more hands-on approach.

    Question 2:

    If we were to start all over, and build a new transition and 
veteran employment program that would be funded at $233 million 
dollars, how could it differ from the program we have today?

    Answer:

    The current TAP GPS program is a good model. If we were to start 
all over, however, improvements would most likely need to be made. When 
the TAP GPS program was initiated, VSOs lost a major foothold. Prior to 
TAP GPS, DAV's Transition Service Officers (TSOs) performed additional 
services, free of charge, during TAP benefit briefing classes.
    Our TSOs provided presentations at these briefings to explain the 
value of VSO representation in navigating the complexities of the 
Department of Veterans Affairs (VA). DAV TSOs also performed treatment 
record reviews to determine whether medical evidence supported a 
disability claim. Also, private interviews were conducted to ascertain 
if the service member had existing or potential disabilities that may 
not have been disclosed.
    VSOs should be an equal partner in the TAP GPS program and if it 
were to start over from scratch, we would have been part of the plan 
all along, not an afterthought or viewed as an inconvenience or an 
intrusion. However, we see our role growing and there is an opportunity 
to increase our involvement.
    There would have been heavy utilization of web-based TAP GPS 
involvement to ensure that separating service members and their 
dependents could access information remotely. This would not supplement 
the requirement to participate in a class environment, but function to 
complement the TAP GPS program. The information would also be made 
available on-line to veterans so they could go back and review the 
information at a later time if they chose to do so.
    With respect to employment programs, we also recommend that all 
services and programs be consolidated in a new fourth administration 
within the VA that would include the transfer and integration of the 
Department of Labor's Veterans Employment and Training Service as 
discussed in our prepared testimony.

    Question 3:

    Do you believe that money spent on public media to highlight 
veterans' positive characteristics and values to employers, would be 
money well spent?

    Answer:

    Yes. Also, it would be good to showcase veterans who are currently 
working in the private sector and other contributions they are making 
within our communities.

    Question 4:

    Do you think the $175 million requested for veteran employment 
specialists reflects a high expectation for a return on investment?

    Answer:

    No. As stated in our testimony, this flat-line actually does not 
signify any expectations for the program. Furthermore, with nearly 
250,000 service members leaving active duty each year, employment 
services must be adequately resourced to meet their needs.

    Question 5:

    There have been some conversations about creating a fourth 
administration at the VA, to handle the veterans' employment programs 
currently administrated by the Department of Labor. Many members of 
this committee and many of our friends in the VSO community have been 
critical of aspects of the VA in almost every hearing or meeting we've 
held. Do any of you have concerns about adding to the VA's workload?

    Answer:

    It is true that VSOs and others have been critical when it comes to 
certain aspects of the VA; at times criticisms are warranted, such as 
in the case of some very harsh criticism regarding the change in policy 
requiring the use of standardized forms. In fact, this change is so 
egregious that DAV will be filing a federal lawsuit against the VA 
regarding these changes to the claims and appeals process. This is a 
prime example in which such harsh criticism is warranted.
    In terms of creating a fourth administration within the VA, while 
this would add to VA's overall workload, it would also add commensurate 
resources through shifting DOL's current VETS resources to VA. The 
added responsibilities within the new administration would be supported 
by the additional staff and resources transferred. In addition, it 
would reorganize and rebalance VA's workload by removing economic 
opportunity programs from within the VBA and placing them within the 
new administration. There is also the added benefit of focusing more 
closely on the claims and appeals aspects of VBA's mission.

    Question 6:

    Have any of you looked at how different states utilize the grant 
funding they receive from these programs? Are there some states that 
are more efficient and have better results? Does the DoL effectively 
monitor and audit how the states are using their funding?

    Answer:

    We have not looked at individual states and how they utilize funds 
for the programs and cannot comment on the success or failures using a 
state-by-state analysis.
    To date, we have seen no evidence of comprehensive monitoring 
pertaining to the use of funds provided to states through DoL's Jobs 
for Veterans State Grant (JVSG) program. The JVSG facilitates DVOP and 
LVER programs throughout the states and there has been concern that 
accountability and oversight of state DVOP and LVERs is inadequate.
    Furthermore, it is essential that DVOPs and LVERs focus on veteran-
related employment activities. Routine oversight must be performed to 
ensure they stay focused on improving employment opportunities and 
outcomes for veterans.

                                 <all>
</pre></body></html>
